No. ______
In the

Supreme Court of the United States
__________________
JOHN W. KIMBROUGH, III,
Petitioner,
v.
RON NEAL, SUPERINTENDENT,
INDIANA STATE PRISON,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
MICHAEL K. AUSBROOK
Counsel of Record
SETH M. LAHN
INDIANA UNIVERSITY
MAURER SCHOOL OF LAW
Federal Habeas Project
211 South Indiana Avenue
Bloomington, IN 47405
(812) 322-3218
micausb@iu.edu
Counsel for Petitioner
March 23, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Is it an unreasonable application of federal law to
hold, for Strickland purposes, that there was no
reasonable probability that the state’s appellate
court would have granted sentencing relief if asked,
when the same appellate court, as a historical fact,
actually granted sentencing relief without being
asked?
2. In reversing the district court’s grant of habeas
relief, did the Seventh Circuit misidentify the state
appellate court’s decision as one “not based on
federal law,” although that state decision
explicitly—though unreasonably—applied
Strickland by concluding that there was no
reasonable probability that the state’s appellate
court would have granted sentencing relief if asked,
when that same appellate court actually granted
sentencing relief without even being asked?

ii
PARTIES TO THE PROCEEDING
The following list identifies, pursuant to Rule
14.1(b), all of the parties appearing before this Court
and before the United States Court of Appeals for the
Seventh Circuit:
1. John W. Kimbrough, III, D.O.C. No. 219656, an
inmate of the Indiana State Prison
2. Ron Neal, Superintendent, Indiana State Prison

iii
LIST OF RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii),
Petitioner states that there are no proceedings in any
state or federal trial or appellate court, including
proceedings in this Court, that are directly related to
the case in this Court.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
LIST OF RELATED PROCEEDINGS . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL STATUTORY PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Petitioner’s Trial & Direct Appeal . . . . . . . . . 5
B. The State Post-Conviction Proceedings. . . . . . 9
C. The Habeas Proceedings in the U.S. District
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
D. Appeal before the Seventh Circuit . . . . . . . . . 12
REASONS FOR GRANTING THE WRIT . . . . . . . 14
I.

Deficient Performance Entails at Least Some
Probability that the Proceeding Would Have
Resulted Differently . . . . . . . . . . . . . . . . . . . 14

II.

The Kimbrough III Decision was in No Way
a Pronouncement of State Law . . . . . . . . . . . 19

v
III.

Strickland Prejudice Analysis Cannot Ignore
the Facts of the Case . . . . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit, Nos.
18-3145 and 18-3153
(October 24, 2019) . . . . . . . . . . . . . App. 1
Appendix B Entry Discussing Motion to Alter or
Amend Judgment in the United States
District Court, Southern District of
Indiana, Indianapolis Division, No.
1:16-cv-01729-WTL-DML
(September 6, 2018) . . . . . . . . . . . App. 9
Appendix C Entry Granting Petition for a Writ of
Habeas Corpus and Final Judgment in
the United States District Court,
Southern District of Indiana,
Indianapolis Division, No. 1:16-cv01729-WTL-DML
(November 30, 2017) . . . . . . . . . . App. 13
Appendix D Memorandum Decision in the Court of
Appeals of Indiana, No. 45A05-1506PC-687
(January 11, 2016) . . . . . . . . . . . App. 32
Appendix E Opinion in the Indiana Supreme
Court, No. 45S04-1212-CR-687
(December 19, 2012) . . . . . . . . . . App. 47

vi
Appendix F Memorandum Decision in the Court of
Appeals of Indiana, No. 45A04-1106CR-328
(March 21, 2012) . . . . . . . . . . . . . App. 58

vii
TABLE OF AUTHORITIES
CASES
Callahan v. Campbell,
427 F.3d 897 (11th Cir. 2005). . . . . . . . . . . . . . . 17
Cardwell v. State,
895 N.E.2d 1219 (Ind. 2008). . . . . . . . . . . . . . . . 19
Claudio v. Scully,
982 F.2d 798 (2d. Cir. 1992) . . . . . . . . . . . . . . . . 16
Cooper v. State,
540 N.E.2d 1216 (Ind. 1989). . . . . . . . . . . . . . . . 19
Gaddie v. State,
10 N.E.3d 1249 (Ind. 2014). . . . . . . . . . . . . . . . . 23
Goff v. Bagley,
601 F.3d 445 (6th Cir. 2010). . . . . . . . . . . . . . . . 15
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . . . . . . . . . . 13
Jones v. Stotts,
59 F.3d 143 (10th Cir. 1995). . . . . . . . . . . . . . . . 16
Jones v. Zatecky,
917 F.3d 578 (7th Cir. 2019). . . . . . . . . . 14, 22, 23
Martin v. Grosshans,
424 F.3d 588 (7th Cir. 2005). . . . . . . . . . . . . . . . 24
Mason v. Hanks,
97 F.3d 887 (7th Cir. 1996). . . . . . . . . . . . . . . . . 15
Mayo v. Henderson,
13 F.3d 528 (2d Cir. 1994) . . . . . . . . . . . . . . . . . 16

viii
Miller v. Zatecky,
820 F.3d 275 (7th Cir. 2016). . . . . . . . . . . . . 21, 22
Mullaney v. Wilbur,
421 U.S. 684 (1975). . . . . . . . . . . . . . . . . . . . . . . 16
Myers v. State,
27 N.E.3d 1069 (Ind. 2015). . . . . . . . . . . . . . . . . 19
Paredes v. Quarterman,
574 F.3d 281 (5th Cir. 2009). . . . . . . . . . . . . 16, 17
Parks v. State,
22 N.E.3d 552 (Ind. 2014). . . . . . . . . . . . . . . . . . 19
Porter v. McCollum,
558 U.S. 30 (2009). . . . . . . . . . . . . . . . . . . . . . . . 15
Rompilla v. Beard,
545 U.S. 374 (2005). . . . . . . . . . . . . . . . . . . . . . . 15
Serino v. State,
798 N.E.2d 852 (Ind. 2003). . . . . . . . . . . . . . . . . 21
Shaw v. Wilson,
721 F.3d 908 (7th Cir. 2013). . . . . . . 14, 22, 23, 24
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . passim
Waddington v. Sarausad,
555 U.S. 179 (2009). . . . . . . . . . . . . . . . . . . . . . . 18
Walker v. Hoffner,
534 Fed. App’x. 406 (6th Cir. 2013) . . . . . . . . . . 18

ix
CONSTITUTIONS AND STATUTES
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . 2, 3, 13
RULES
Ind. App. R. 7(B). . . . . . . . . . . . . . . . . . . . . . . . passim
Ind. App. R. 57(H)(1) . . . . . . . . . . . . . . . . . . . . . . . . 23
Ind. App. R. 65(D) . . . . . . . . . . . . . . . . . . . . . . . . . . 23

1
PETITION FOR A WRIT OF CERTIORARI
John W. Kimbrough, III, Petitioner and
Appellee/Cross-Appellant below, respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Seventh Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit (App. 1) is reported as
Kimbrough v. Neal, 941 F.3d 879 (7th Cir. 2019). The
district court’s judgment granting a writ of habeas
corpus, Entry Granting Petition for a Writ of Habeas
Corpus (November 30, 2017) (App. 13), was unreported.
The district court’s order denying Kimbrough’s Motion
to Alter or Amend that judgment under Fed. R. Civ. P.
59 (September 6, 2018) (App. 9) was unreported.
The decision on Kimbrough’s direct appeal following
his conviction in state court, Kimbrough v. State
(“Kimbrough I”), Indiana Court of Appeals No.
45A04–1106–CR–328 (March 21, 2012) (mem.), trans.
granted and vacated in part and summarily aff’d in
part (App. 58), was unreported. The decision of the
Indiana Supreme Court granting transfer, vacating the
Indiana Court of Appeals decision and affirming the
trial court (“Kimbrough II”), is reported as Kimbrough
v. State, 979 N.E.2d 625 (Ind. 2012).
The decision of the Indiana Court of Appeals
affirming the denial of Kimbrough’s petition for state
post-conviction relief (App. 32) is unreported,
Kimbrough v. State (“Kimbrough III”), Indiana Court of
Appeals No. 45A05–1506–PC–687 (Jan. 11, 2016).

2
JURISDICTION
The United States Court of Appeals for the Seventh
Circuit entered judgment on October 24, 2019,
reversing the district court’s grant of a Writ of Habeas
Corpus under 28 U.S.C. § 2254 (App. 1). The Seventh
Circuit had granted Kimbrough a certificate of
appealability on January 3, 2019.
On January 26, 2020, Justice Kavanaugh granted
Petitioner’s application for an extension of time in
which to file his petition for certiorari up to and
including March 22, 2020. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution, amend. VI
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial,
by an impartial jury of the State and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the Assistance of
Counsel for his defence.
28 U.S.C. § 2254(d)(1)
(d) An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the

3
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States . . . .
INTRODUCTION
Petitioner’s appellate lawyer missed an obvious
issue: Under Indiana Appellate Rule 7(B), his client
was entitled on appeal to invoke broadly discretionary
appellate sentencing review. The issue was so obvious
that the Indiana Court of Appeals brought it up on its
own and cut Kimbrough’s 80-year sentence in half. The
Indiana Supreme Court—without disputing that the
sentence reduction was warranted on the
merits—undid the appellate court’s relief, solely
because Petitioner’s appellate counsel had waived Rule
7(B) sentencing review by not asking for it in
Petitioner’s direct appeal.
When Petitioner alleged in post-conviction
proceedings that his appellate lawyer’s catastrophic
oversight amounted to appellate ineffective assistance
of counsel, the Indiana Court of Appeals held that there
was no reasonable probability Petitioner would have
received the sentence reduction had his appellate
lawyer asked for it—the standard for prejudice under
Strickland v. Washington, 466 U.S. 668 (1984)—even
though the earlier panel of the same court had reduced
Petitioner’s sentence without being asked to do so.

4
Thereafter, in federal habeas proceedings, the
district court came to the obvious conclusion: the ruling
by the second Indiana Court of Appeals panel was an
unreasonable application of the federal Strickland
prejudice standard simply as a matter of logic: it was
contrary to any reasonable application of Strickland to
maintain that there was “no reasonable probability”
that Petitioner would have received sentencing relief
had he asked for it, when he had actually received that
appellate sentencing relief without asking for it.
The Seventh Circuit reversed the district court
because, it said, the state court had merely been
applying state law. That is, the Seventh Circuit
misperceived the Indiana Court of Appeals’ decision as
one “not based on federal law” App. 6. It is absolutely
common that a Strickland case arriving for habeas
review is “based on” state law in the sense that the
analysis involves state criminal and procedural law
and rules—and, in this case, a state appellate rule
providing for almost entirely discretionary appellate resentencing. And the Indiana Court of Appeals was clear
that it was applying Strickland, not merely defeating
Kimbrough’s claim as a matter of state law.
That is, the central error made by the Seventh
Circuit was in mischaracterizing the Indiana Court of
Appeals decision as “rest[ing] on the conclusion that, as
a matter of state law, it would have been futile to
contest the sentence’s length” (emphasis added). This
mistake is in part understandable, given that there are
substantive and jurisprudential aspects of Indiana
appellate sentencing review that are state-peculiar. In
particular, Indiana appellate re-sentencing is, again,

5
almost entirely discretionary, and re-sentencing
decisions have no precedential value.
That a previous panel of the Indiana appellate court
actually did halve Petitioner’s sentence—and that the
Indiana Supreme Court vacated that decision solely
because Petitioner’s appellate lawyer had failed to ask
for the reduction—is a fact. And it is that fact that
makes the second panel’s conclusion—that there was
no reasonable likelihood of such a thing
happening—completely unreasonable as a matter of
both logic and experience.
This Court’s intervention is needed to clarify when
a state court decision—almost inevitably involving
state substantive and procedural law—does and does
not rest on a question of state law, about which, of
course, federal habeas courts cannot second-guess the
state courts.
STATEMENT OF THE CASE
A. Petitioner’s Trial & Direct Appeal
In 2011, Petitioner was convicted of four counts of
child molesting as Class A felonies. His total sentence
was 80 years. He was sentenced to 40 years in prison
for each count. Counts I and II were ordered served
concurrently to one another, as were Counts III and IV;
Counts III and IV were ordered served consecutively to
Counts I and II. Kimbrough v. State (“Kimbrough III”),
Indiana Court of Appeals No. 45A05–1506–PC–687
(Jan. 11, 2016) (mem.), trans. denied, App. 34.

6
Petitioner pursued a direct appeal that challenged
both his convictions and sentences. See Kimbrough v.
State (“Kimbrough I”), Indiana Court of Appeals No.
45A04–1106–CR–328 (March 21, 2012) (mem.), App.
58, trans. granted and vacated in part and summarily
aff’d in part by 979 N.E.2d 625 (Ind. 2012). Petitioner’s
challenge to his sentence was merely that the trial
court had abused its discretion. Id.; App. 59.
Although there had been no request to do so, the
Kimbrough I court reduced Petitioner’s sentence from
80 years to 40 years under the authority of Indiana
Appellate Rule 7(B), which provides: “The Court may
revise a sentence authorized by statute if, after due
consideration of the trial court’s decision, the Court
finds that the sentence is inappropriate in light of the
nature of the offense and the character of the offender.”
Applying Rule 7(B), the Court of Appeals cut
Petitioner’s sentence in half, again without having been
asked to do so by Petitioner’s appellate lawyer.
One member of the panel, Judge Paul Mathias,
dissented from the majority’s decision to grant
Petitioner sentencing relief under Rule 7(B):
Because Kimbrough advances no argument
under Appellate Rule 7(B) concerning the nature
of the offense or his character, I would not reach
the issue of the appropriateness of his sentence.
But even assuming that it is proper to
analyze Kimbrough’s sentence under Appellate
Rule 7(B) sua sponte, I would conclude that his
sentence was not inappropriate.

7
Kimbrough I, (Mathias, J., concurring in part and
dissenting in part) (citations omitted). Judge Mathias
then proceeded to conduct a detailed textbook Rule 7(B)
analysis, weighing Petitioner’s lack of criminal history;
the number and ages of the victims; the fact that
Petitioner had abused a position of trust; the fact that
the incidents were not isolated; and additional evidence
that Judge Mathias found pertinent to Petitioner’s
character. App. 70–77. Judge Mathias thus dissented
from the majority’s reduction in Petitioner’s sentence.
Petitioner’s sentencing victory in the Indiana Court
of Appeals, however, was short-lived. The State of
Indiana petitioned the Indiana Supreme Court for
transfer, presenting only the issue of whether or not
the Court of Appeals could raise the sentencing issue
sua sponte: “Does an appellate court’s authority to
‘correct sentencing errors’ extend to using Appellate
Rule 7(B) to sua sponte revise an otherwise proper
sentence that the defendant does not challenge as
inappropriate?” The Indiana Supreme Court granted
the State’s petition. Kimbrough v. State (“Kimbrough
II”), 979 N.E.2d 625 (Ind. 2012). App. 47.
In Kimbrough II, the Indiana Supreme Court did
three things. First, it summarily affirmed the part of
Kimbrough I that affirmed Petitioner’s convictions.
Kimbrough II, 979 N.E.2d 627–28; App. 51. Second, it
agreed with Kimbrough I that the trial court had not
abused its discretion in sentencing Kimbrough. Id. at
628–29; App. 54–55.
Third, and most important for this case, the Indiana
Supreme Court reversed the Rule 7(B) sentence
reduction, not on its merits, but instead solely because

8
Petitioner’s appellate lawyer attorney had not asked for
the sentence reduction.
As we have declared[,] a defendant must
persuade the appellate court that his or her
sentence has met this inappropriateness
standard of review [imposed by Rule 7(B)].
Childress v. State, 848 N.E.2d 1073, 1080 (Ind.
2006). “When a defendant requests appellate
review and revision of a criminal sentence
pursuant to authority derived from Article 7,
Sections 4 or 6 of the Indiana Constitution . . .
the reviewing court is presented with an issue
whether to affirm, reduce, or increase the
sentence. McCullough v. State, 900 N.E.2d 745,
750 (Ind. 2009) (emphasis added).
Kimbrough made no such request and
there therefore was no issue in this regard
to be considered by a reviewing court.
979 N.E.2d at 630; App. 56 (emphasis added).
The Indiana Supreme Court also observed (in a
footnote) about the Court of Appeals decision: “Judge
Mathias undertook a thorough analysis of the nature of
Kimbrough’s offenses and his character and concluded
that Kimbrough’s sentence was not inappropriate.” Id.
(citation omitted).

9
B. The State Post-Conviction Proceedings
Petitioner then sought state post-conviction relief
for the claim that his appellate lawyer had been
ineffective for failing to ask for a sentence reduction
under Indiana Appellate Rule 7(B). The Indiana Court
of Appeals dispatched the claim as follows:
Initially, we note that this Court did not
have the benefit of argument or analysis on
the Rule 7(B) issue from the State. We now
have the benefit of that argument and
analysis, and as explored below, are
persuaded that this Court would have
reached a different result had the issue
been fully briefed.
....
Following in Judge Mathias’s footsteps,
and with the benefit of full briefing on the
issue, we now consider whether
Kimbrough’s sentence was inappropriate.
....
Given this evidence concerning Kimbrough’s
character, combined with the evidence regarding
the nature of the offenses— including the
presence of multiple victims, their young ages,
the ongoing nature of his crimes, and his abuse
of a position of trust—we are persuaded that
if the Kimbrough majority had engaged in
a full Rule 7(B) analysis with the benefit of
argument and analysis from the State, it
would not have found Kimbrough’s

10
sentence inappropriate. In other words,
Kimbrough has not established that there is a
reasonable probability that, if appellate counsel
had made a Rule 7(B) challenge, the result of the
proceeding would have been different. Therefore,
he has failed to establish prejudice as a result of
the omission of this argument in his direct
appeal.
Kimbrough v. State (“Kimbrough III”), Indiana Court of
Appeals No. 45A05–1506–PC–687 (Jan. 11, 2016), App.
42–45 (footnote omitted) (emphases added) (mem.),
trans. denied.
C. The Habeas Proceedings in the U.S. District
Court
Petitioner then sought habeas relief under 28
U.S.C. § 2254, raising his appellate ineffectiveassistance claim again. The district court granted
Petitioner a writ of habeas corpus conditioned on a new
appeal in state court. Judgment. App. 30.
In granting the writ, the district court addressed, in
turn, Strickland performance, Strickland prejudice,
and the conditional relief. Entry Granting Petition for
a Writ of Habeas Corpus. App. 13. With respect to
Strickland performance, the district court engaged in
a thorough analysis and found that Petitioner’s lawyer
had performed deficiently. App. 18–22. The Respondent
Superintendent did not contest deficient performance
in the Seventh Circuit.
This case is, in fact, about Strickland prejudice,
about which the district court said in part:

11
To determine whether a defendant has been
prejudiced under Strickland, a court asks only
whether the defendant would have had a
“reasonable probability” of success, not whether
he definitively would or would not have
succeeded. Shaw, 721 F.3d at 918. Review under
Rule 7(B) is discretionary. Knapp v. State, 9
N.E.3d 1274, 1291-92 (Ind. 2014). Thus, the
Kimbrough III court’s determination that it
would not have reduced his sentence does not
necessarily compel a conclusion that Kimbrough
did not have a reasonable probability of success
on the merits of a Rule 7(B) challenge. . . . even
if the conclusion of the Kimbrough III court
that, as a matter of state law, it would not
have reduced Kimbrough’s sentence
provided a basis to conclude that
Kimbrough did not have a reasonable
chance of success on appeal, this
determination cannot be considered in a
vacuum. This is because the Kimbrough I court,
applying the same state law that the Kimbrough
III court applied, reached the opposite
conclusion. Because two panels of the
Indiana Court of Appeals utilized their
discretion to reach opposite conclusions,
Kimbrough necessarily had a “better than
negligible” chance of success on a Rule 7(B)
argument. The Kimbrough III court’s
conclusion that he did not is an
unreasonable application of Strickland
because it incorrectly asked how it would
have resolved the issue, not, as required by
Strickland, whether a Rule 7(B) challenge

12
would have had a reasonable likelihood of
success. See Strickland, 466 U.S. at 694.
....
Having found that the Kimbrough III court
unreasonably applied Strickland, this Court
must review the claim de novo, this requires the
Court to determine whether it is at least
reasonably likely the result would have been
different if appellate counsel had not failed to
ask for revision under Rule 7(B). As noted above,
because the Kimbrough I court sua sponte
concluded that a Rule 7(B) reduction was
appropriate, it follows that Kimbrough
would have had a reasonable chance of
success on this argument. Kimbrough
therefore has established prejudice from his
counsel’s deficient performance.
App. 24–27 (some citations omitted) (some internal
quotation marks omitted).
D. Appeal before the Seventh Circuit
The Superintendent appealed the district court’s
grant of habeas relief, and Kimbrough cross-appealed
the conditional relief granted by the district court. The
Seventh Circuit reversed the district court’s grant of
habeas relief and thereby rendered moot Petitioner’s
cross-appeal with respect to the conditional relief
granted. Kimbrough v. Neal, 941 F.3d 879 (7th Cir.
2019).
The Seventh Circuit’s opinion characterized
Petitioner’s request for habeas relief this way: “As a

13
last resort, Kimbrough sought a writ of habeas corpus
from the district court, arguing his appellate counsel
was ineffective under Strickland [full citation
omitted].” 941 F.3d at 881. The court recognized that
“‘[t]he ‘pivotal question’ here is whether the court in
Kimbrough III unreasonably applied Strickland”
(quoting Harrington v. Richter, 562 U.S. 86, 101
(2011)).
The court noted the substantive standard of
“unreasonable application” imposed by 28 U.S.C.
2254(d)(1), and the de novo standard of review used to
determine the legal question of “contrary to clearly
established federal law,” id. The crux of the Seventh
Circuit’s abbreviated analysis comes in the following
line: “Because Strickland requires Kimbrough to show
a reasonable probability that he would have obtained
relief if his counsel had raised a Rule 7(B) argument,
the rule 7(B) inquiry underlies the Strickland
analysis.” Id. Judge Brennan then reasoned:
Kimbrough argues the state court’s decision in
Kimbrough III unreasonably applied federal law.
But the Indiana Court of Appeals decision
was not based on federal law. It rests on the
conclusion that, as a matter of state law, it
would have been futile to contest the sentence’s
length on appeal because the 80-year sentence is
not ‘inappropriate in light of the nature of the
offense and character of the offender’”
911 F.3d 882 (quoting Kimbrough III, 2016 WL 112394,
at * 4-5).

14
Pointing to two prior cases in which the Seventh
Circuit had upheld or granted habeas relief, Shaw v.
Wilson, 721 F.3d 908 (7th Cir. 2013) and Jones v.
Zatecky, 917 F.3d 578 (7th Cir. 2019)—where habeas
relief was based on the ineffectiveness of lawyers who
had failed to object to untimely amendments to charges
under Indiana law—Judge Brennan distinguished
Shaw and Jones from the facts of Petitioner’s case by
saying that in those earlier cases, “We [the Seventh
Circuit] were concerned with Indiana attorneys
ignoring the clear text of the Indiana statute and
allowing prosecutors to make untimely amendments.
Jones, 917 F.3d at 583. That is not the situation here,”
941 F.3d at 882 (emphasis added).
REASONS FOR GRANTING THE WRIT
The Seventh Circuit misidentified a state court
determination as being a pronouncement of state law.
It then erroneously equated that state court
determination with the federal question of Strickland
prejudice. Such labelling errors present a serious risk:
that state courts are resolving federal
questions—potentially utterly unreasonably—with no
oversight and no recourse for a litigant who seeks to
correct a mistake.
I.

Deficient Performance Entails at Least
Some Probability that the Proceeding
Would Have Resulted Differently

At no point in the proceedings has it been
reasonably contested that Petitioner’s appellate lawyer
performed deficiently. He failed to ask for relief that
was so obviously merited that the Indiana Court of

15
Appeals granted it sua sponte. But the Seventh
Circuit’s reasoning must necessarily have been that the
Kimbrough III decision means a Rule 7(B) argument in
Kimbrough I would have had a zero chance of success.
If that is so, then Petitioner’s lawyer cannot have
performed deficiently by failing to make an argument
that would have been entirely futile. On the merits,
because Kimbrough III did not address Strickland
performance, the district court correctly reviewed the
issue de novo. See Entry, App. 41 (citing Porter v.
McCollum, 558 U.S. 30, 38 (2009), and Rompilla v.
Beard, 545 U.S. 374, 390 (2005)). It also correctly
reviewed the issue’s merits, concluding that
Petitioner’s lawyer had performed deficiently in the
Strickland sense. See App. 42a–45a.
Turning to Strickland prejudice, a federal habeas
court assessing the reasonableness of Strickland
prejudice is not bound by a state court’s determination
of the reasonableness issue merely because prejudice
turns on a state-law issue. The question of whether a
lawyer was ineffective under the Sixth Amendment is
a question of federal law, governed by this Court’s
decision in Strickland—regardless of whether the legal
question underlying the ineffectiveness claim involves
state or federal law. See Goff v. Bagley, 601 F.3d 445,
464 (6th Cir. 2010) (“If [Strickland is satisfied], then
Goff’s constitutional right to the effective assistance of
counsel on appeal has been violated, regardless of the
fact that counsel’s underlying failure is a matter of
state law.”); Mason v. Hanks, 97 F.3d 887, 894 (7th Cir.
1996) (“Whether Terrell’s testimony amounted to
inadmissible hearsay presents a question of state law,
of course; but this poses no impediment to Mason’s

16
claim of in- effectiveness. . . . [T]he constitutional right
at stake here is the right to the effective assistance of
counsel on appeal, and in that context we may consider
the state, as well as the federal issues that the
petitioner’s counsel did not pursue”); Jones v. Stotts, 59
F.3d 143, 145 n.2 (10th Cir. 1995) (“[T]he errors raised
to support a claim of ineffective assistance may assert
either federal law or state law violations”); Mayo v.
Henderson, 13 F.3d 528, 533 (2d Cir. 1994) (“The claim
whose omission forms the basis of an ineffective
assistance claim may be either a federal-law or a statelaw claim, so long as the ‘failure to raise the state claim
fell outside the wide range of professionally competent
assistance’”) (quoting Claudio v. Scully, 982 F.2d 798,
805 (2d. Cir. 1992)).
To be sure, federal courts are bound by state court
constructions of state law. Mullaney v. Wilbur, 421 U.S.
684, 691 (1975). And the federal court must defer to
state-court precedent concerning the questions of state
law underlying the defendant’s ineffectiveness claim.
But review by a federal court is not foreclosed when the
issue is one of federal law: whether appellate counsel’s
failure to raise a legal issue was unreasonable under
the constitutional standard for effectiveness set forth
in Strickland.
This distinction—between a federal court’s
reassessment of a state court’s determination that a
state-law claim would fail on the merits (which is not
permissible) and a state court’s determination whether
counsel’s failure to raise an issue was unreasonable
under the Strickland standard—is a crucial one. In
Paredes v. Quarterman, 574 F.3d 281, 291 (5th Cir.

17
2009), the defendant argued in a federal habeas
petition that his prior appellate counsel was ineffective
for failing to advance on appeal the issue of whether
the prosecutor’s shuffle of the jury wheel was unlawful.
But the state habeas court had squarely held that the
jury wheel shuffle was timely as a matter of state law.
Id.
Similarly, in Callahan v. Campbell, 427 F.3d 897,
931-932 (11th Cir. 2005), the defendant’s lawyer
refrained from objecting when the defendant’s prior
statements were read into the record. In a subsequent
federal habeas proceeding, the defendant alleged that
his lawyer was ineffective for failing to object when the
damaging statements were read into the record. The
federal court of appeals held that Alabama courts had
expressly rejected the defendant’s argument in a prior
stage of the defendant’s own case. Id. at 932 (noting
that the state court “already answered the question of
what would have happened had [counsel] objected to
the introduction of [defend- ant’s] statements * * *—the
objection would have been overruled”). Granting the
defendant the relief he sought would have required the
federal court to “to conclude the state court
misinterpreted state law.” Id. And the Eleventh
Circuit, of course, declined this invitation.
Here, by contrast, it requires no resolution or
application of a question of state law to address
whether Petitioner was prejudiced, in the Strickland
sense, by his appellate lawyer’s deficient performance
in failing to ask for a sentence reduction under Indiana
Appellate Rule 7(B). The state court’s determination of

18
that federal law question does not preclude a federal
court from reaching a different conclusion.
In other cases, federal courts have carefully
considered the underlying state court decision and
found that the state court had unreasonably applied
federal law. See Walker v. Hoffner, 534 Fed. App’x. 406,
410-413 (6th Cir. 2013) (concluding that the state court
applied the incorrect prejudice standard, which asked
the defendant to prove that counsel deprived him of a
reasonably likely chance of acquittal), cert. denied, 134
S. Ct. 1025 (2014). In fact, this Court corrected the
error made by the lower court in deciding the
reasonableness of the Washington state courts’
application of federal law. Waddington v. Sarausad,
555 U.S. 179, 191–192 (2009).
The federal district court got it right. Petitioner is
not asking (and has no reason to ask) that the federal
courts second-guess an Indiana court on what Indiana
appellate procedure or sentencing law provide. He is
making a simpler point: Because Petitioner’s appellate
lawyer performed deficiently, as the district court
concluded and the Respondent Warden has never
contested, there necessarily was at least some
possibility that asking for a sentence reduction Rule
7(B) relief would have succeeded. In fact that
Petitioner obtained a sentencing reduction in his direct
appeal without asking for it ought to be almost
conclusive that the possibility of obtaining sentencing
relief with a request for it would have been at least
reasonable. The Seventh Circuit concluded that that
possibility was zero and that that was what the
Indiana Court of Appeals had said in Kimbrough III.

19
That conclusion cannot be close to correct as a matter
of federal law.
II.

The Kimbrough III Decision was in No Way
a Pronouncement of State Law

Questions of state law are, by definition, not
discretionary. In other words, with questions of state
law, there is generally a correct answer. Indiana
Appellate Rule 7(B) sentencing determinations, on the
other hand, depend on a state court’s sense of “the
culpability of the defendant, the severity of the crime,
the damage done to others, and myriad other factors
that come to light in a given case.” Cardwell v. State,
895 N.E.2d 1219, 1224 (Ind. 2008). “The principal role
of appellate review should be to attempt to leaven the
outliers . . . but not to achieve a perceived correct’
result in each case.” Id. at 1225 (internal quotation
marks omitted) (citation omitted); see also Myers v.
State, 27 N.E.3d 1069, 1081–82 (Ind. 2015). “Appellate
review of such sentences proceeds on a basis somewhat
different from the methods that apply to other issues
that typically are the subject of a criminal appeal.”
Cooper v. State, 540 N.E.2d 1216, 1218 (Ind. 1989).
That method of review balances “the trial court’s
sentencing decision with the possibility of appellate
revision on appeal [and] places central focus on the role
of the trial judge, while reserving for the appellate
court the chance to review the matter in a climate more
distant from local clamor.” Parks v. State, 22 N.E.3d
552, 556 (Ind. 2014) (Dickson, J., dissenting) (internal
quotation marks omitted) (citation omitted).
In fact, by virtue of its origins, Rule 7(B) review is
very much akin to an original sentencing by a trial

20
court. The English statute establishing the Court of
Criminal Appeals set forth that court’s power to review
and revise sentences as follows:
On appeal against sentence the Court of
Criminal Appeal shall, if they think that a
different sentence should have been passed,
quash the sentence passed at the trial, and pass
such other sentence warranted in law by the
verdict (whether more or less severe) in
substitution therefore as they think ought to
have been passed, and in any other case shall
dismiss the appeal. Criminal Appeal Act, 1907,
7 Edward 7, ch. 23 § 4(3). For much of the period
after the voters adopted this provision of the
state constitution, this Court constrained review
of sentences under a rule that provided that
appellate courts could not revise sentences
unless “the sentence was manifestly
unreasonable in light of the offense and the
offender.” See Ind. Appellate Rule 7(B) (2002).
This barrier was so high that it ran the risk of
impinging on another constitutional right
contained in Article 7, that the Supreme Court’s
rules shall “provide in all cases an absolute right
to one appeal.” Ind. Const. art. VII, § 6.
Accordingly, we have taken modest steps to
provide more realistic appeal of sentencing
issues. The present rule says: “The Court may
revise a sentence authorized by statute if, after
due consideration of the trial court’s decision,
the Court finds that the sentence is
inappropriate in light of the nature of the

21
offense and the character of the offender.” Ind.
Appellate Rule 7(B).
Serino v. State, 798 N.E.2d 852, 856–57 (Ind. 2003). No
one would say that a sentence imposed by a trial court
is a “statement of state law.” There is similarly no
reason to say that a Rule 7(B) sentencing decision in an
appeal, whatever it is, is “a statement of state law.”
Petitioner’s habeas claim did not rely on Kimbrough
I for any proposition of state law: rather, it rested on
the fact that Kimbrough I reduced Petitioner’s sentence
by 40 years under Appellate Rule 7(B) without
Petitioner having invoked the rule. It defies logic—and
Strickland—to conclude that there is no reasonable
probability that Petitioner would have received Rule
7(B) sentencing relief had his appellate lawyer asked
for it.
Actuality must be, at a minimum, an indicator of
possibility.
Looked at from the other direction: The Kimbrough
III panel may have answered a state-law Rule 7(B)
question for itself, but that answer does not dispose of
the Strickland question— indeed, it is not the answer
that the Strickland analysis turns on. Moreover, in all
the times the issue has been briefed, no one has ever
added anything to Judge Mathias’s dissent possibly
suggesting that “full briefing” in Kimbrough I would
have changed anything.
The Seventh Circuit decision seems to rest in large
part on a mistake that it had made before in Miller v.
Zatecky, 820 F.3d 275 (7th Cir. 2016). Like the Seventh
Circuit’s decision here, the court in Miller

22
misunderstood the nature of appellate resentencing
under Indiana Appellate Rule 7(B) and the structure of
the Indiana appellate courts. In fact, the Indiana
Supreme Court has said that there is no “correct”
answer and that courts may disagree about the result
of review under Rule 7(B). An appellate decision
reducing a sentence—or not—under Rule 7(B) is no
more a statement of state law than a sentence imposed
by a trial court.
Further highlighting the doctrinal confusion is that
Miller is fundamentally at odds with the Seventh
Circuit’s own decisions in Shaw v. Wilson, 721 F.3d 908
(7th Cir. 2013), and Jones v. Zatecky, 917 F.3d 578 (7th
Cir. 2019). In both cases, the Indiana Court of Appeals
had said, as a matter of state law, that late
amendments to charging informations had been
permissible despite a statute saying otherwise. In
neither Shaw nor Jones did the Seventh Circuit say
that was the end of the matter of Strickland
prejudice—that because of the state-court decisions
regarding the state-law question, the probability of a
different result was zero. And both Shaw and Jones
involved a question of state law to which there was
more clearly a correct answer to the state-law question.
In short, Shaw and Jones were correctly decided; Miller
was not.
Moreover, any panel of the Indiana Court of Appeals
is free to disagree with any other panel. There is no
equivalent of “circuit precedent;” there is no en banc
process; and only the Indiana Supreme Court can
resolve conflicts in the decisions of the Court of
Appeals. See, e.g. Gaddie v. State, 10 N.E.3d 1249, 1252

23
(Ind. 2014) (“We reach the same result but granted
transfer to put to rest a conflict among various
decisions in the Court of Appeals.”); see also Ind.
Appellate Rule 57(H)(1) (a principal for reason
justifying transfer is that “[t[he Court of Appeals has
entered a decision in conflict with another decision of
the Court of Appeals on the same important issue.”)
Consequently, absent unambiguous parallel authority
of the Indiana Supreme Court, it is very hard to
characterize anything the Indiana Court of Appeals
says as a statement of state law. That is especially true
of memorandum decisions, which, by rule, may not be
regarded as precedent and may only be cited to
establish res judicata, collateral estoppel, or law of the
case. Ind. Appellate Rule 65(D). And Kimbrough III
was a memorandum decision.
Thus, Kimbrough III’s pronouncement regarding its
view of 7(B) relief can at best only establish the law of
Petitioner’s state post-conviction case; it cannot be “a
statement of state law.” For example, in both Shaw and
Jones, the Indiana Court of Appeals had said, as a
matter of state law, that late amendments to charging
informations had been permissible despite a statute
saying otherwise. In neither Shaw nor Jones did the
Court say that was the end of the matter of Strickland
prejudice— that because of the state-court decisions
regarding the state-law question, the probability of a
different result was zero. And both Shaw and Jones
involved a question of state law to which there was
more clearly a correct answer to the state-law question.

24
III.

Strickland Prejudice Analysis
Ignore the Facts of the Case

Cannot

Strickland says that prejudice results from a
lawyer’s constitutionally deficient performance when
there is a reasonable probability that, but for the
lawyer’s mistakes, the result of the proceeding would
have been different. 668 U.S. at 694. Strickland also
says that “the ultimate focus of inquiry must be on the
fundamental fairness of the proceeding whose result is
being challenged.” Id. at 696 (emphasis added). The
“proceeding whose result is being challenged” in this
case is Kimbrough I.
In a typical case, the analysis of Strickland
prejudice has to proceed by hypothetical. This the rare
case where that is not so. Because hindsight is
permissible when analyzing Strickland prejudice,”
Shaw, 721 F.3d at 918, we know the probability is
practically one that the Kimbrough I majority would
have granted Kimbrough a sentence reduction under
Rule 7(B) had he asked for it. That is, actuality is the
best proof of possibility. Whatever other factors might
be weighed in a Strickland prejudice analysis, the fact
that the different result actually did obtain cannot be
ignored. The Kimbrough III court said that that the
thing that actually happened could not have reasonably
happened. That is simply incoherent. As a matter of
experience, if not logic, it is also absolutely
unreasonable. Cf. Martin v. Grosshans, 424 F.3d 588,
591 (7th Cir. 2005) (finding a Wisconsin state court’s
illogical reasoning made its conclusion unreasonable).
Even if the Kimbrough III court was making some
kind of pronouncement of state law, in Indiana such a

25
pronouncement is not binding on any other panel of the
Court of Appeals. Two panels can reach diametrically
opposed results on the very same question, even on the
very same day. Thus, when engaging in the federal
Strickland prejudice analysis, both opinions of the
Court of appeals must be considered. The fact that one
panel granted the relief, even in the absence of a
request for it, more than suggests that there was at
least a reasonable probability that such relief would
have been granted if asked for.
CONCLUSION
For the foregoing reasons, the Court should grant
this petition.
Respectfully submitted,
Michael K. Ausbrook
Counsel of Record
Seth M. Lahn
Indiana University Maurer School of Law
Federal Habeas Project
211 South Indiana Avenue
Bloomington, IN 47405
(812) 322-3218
micausb@iu.edu
Counsel for Petitioner

